U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



 Homeland Security Issues for USDA
      Commodity Inventories




               Audit Report No.
               50099-13-KC
               February 2004
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250


DATE:     February 11, 2004

REPLY TO
ATTN OF:     50099-13-KC

SUBJECT:     Homeland Security Issues For USDA Commodity Inventories

TO:          James R. Little
             Administrator
             Farm Service Agency

ATTN:        T. Mike McCann
             Director
             Operations and Review Analysis Staff


This report presents the results of our review of Homeland Security Issues for
U.S. Department of Agriculture Commodity Inventories. Your December 22, 2003, written
response to the official draft report is included as exhibit B with excerpts and the Office of
Inspector General’s (OIG) position incorporated into the Findings and Recommendations
section of the report.

Your response indicated that the Farm Service Agency (FSA) generally concurs with our
recommendations and included evidence that the agency has initiated partial corrective
action on some recommendations. However, we were unable to reach management
decision on the recommendations because the response did not include estimated
timeframes for completion of corrective action for each recommendation or information on
other key components of some recommendations.

Please furnish a reply within 60 days describing corrective actions taken or planned and the
timeframes for implementing the corrective action on the recommendations where
management decisions have not been reached. Please note that Departmental Regulation
1720-1 requires a management decision to be reached on all findings and
recommendations within a maximum of 6 months from report issuance and final action
should be completed within 1 year of management decision.
We appreciate the courtesies and cooperation extended to our staff during the review.

/s/


ROBERT W. YOUNG
Assistant Inspector General
for Audit
                       EXECUTIVE SUMMARY
                      HOMELAND SECURITY ISSUES FOR
                       USDA COMMODITY INVENTORIES
                        AUDIT REPORT NO. 50099-13-KC


                                       In its effort to assist the Government in
     RESULTS IN BRIEF                  strengthening homeland security since
                                       September 11, 2001, the Office of Inspector
                                       General (OIG) continues to review those
         activities of the United States Department of Agriculture (USDA) that could
         be vulnerable to attacks. As part of this effort, we reviewed homeland
         security issues as they pertained to USDA-owned or controlled commodity
         inventories. Commodity inventories, referred to as goods held under price
         support and stabilization programs, are acquired by the Commodity Credit
         Corporation (CCC) that are eventually sold or otherwise disposed of to
         satisfy or help economic goals.

           USDA commodity inventories are agricultural commodities, products,
           e.g., foods, feeds, and fibers (collectively referred to as agricultural
           commodities). CCC‘s programs are delivered through personnel and
           facilities of the Farm Service Agency (FSA). The objective of our review
           focused on whether the FSA developed and implemented adequate
           actions to minimize the risk to USDA agricultural commodities of
           destruction, adulteration, and contamination. Our audit disclosed that:

           •   FSA needs to conduct vulnerability and risk assessments to determine
               appropriate levels of protections needed for USDA-owned agricultural
               commodities, including bulk grain, oilseeds, rice, and processed
               commodities. Strategic homeland security action plans and tactics
               have not been developed to help assure that employees managing
               agricultural commodities take appropriate action to deter threats and
               attacks on inventories or to react effectively when such events occur.

           •   FSA needs to address the prospect of intentional and widespread
               contamination regarding handling, transportation, storage, and
               distribution of USDA agricultural commodities. FSA does not have a
               clear safety and security policy of how the commodities are to be
               adequately protected and safeguarded until the final use of the
               agricultural commodity inventory segment has been determined. The
               absence of clear safety and security policies and procedures from FSA


USDA/OIG-A/50099-13-KC                                                        Page i
                can be partly attributed to the overlapping or unclear jurisdictions
                among Federal, State, and local entities, including the Food and Drug
                Administration’s (FDA) versus USDA’s role and responsibilities
                regarding agricultural commodities used as food for humans and used
                for animals.

            •   FSA needs to upgrade its commodity inventory management
                information systems because they are not capable of providing timely
                information to managers on the location and disposition of
                questionable, adulterated, or contaminated inventories so the
                agricultural commodities can be promptly located and tracked during
                periods of crises.

            We also found that FSA warehouse examiners are not subject to
            background investigations to determine their suitability for the positions
            they hold. As a result of these conditions, the vulnerability of USDA
            commodity inventories to threats and attacks have neither been properly
            determined nor adequately addressed.

                                     We recommend that FSA in collaboration with
  KEY RECOMMENDATIONS                the USDA Homeland Security Office develop
                                     USDA food safety and security strategies and
                                     conduct a homeland security risk assessment
         for agricultural commodity operations and related programs. The results
         of this risk assessment should be used as the basis for formulating the
         appropriate corrective action. We also recommend that FSA incorporate
         homeland security and safety issues into the Commodity Operations’
         mission statement, policies, and procedures. In addition, we recommend
         that FSA develop and implement homeland security action plans and
         tactical procedures for commodity operations.

            We recommend that FSA collaborate with FDA and the USDA Homeland
            Security Office and implement measures to manage and protect USDA
            agricultural commodities and loan collateral. In addition, we recommend
            that FSA review and revise existing legislative authorities, regulations,
            policies, contracts, and agreements to provide the appropriate safeguards
            when handling, storing, and transporting agricultural commodities and to
            enable USDA to take appropriate corrective action to safeguard from
            deliberate contamination or through cause and/or negligence of USDA
            contractors or program participants. On the basis of the conclusions
            reached on the assessment, we also recommend that FSA work with the
            Department to seek appropriate authority from Congress or the
            Department of Homeland Security, if needed.

            Furthermore, FSA should evaluate the viability of replacing or upgrading

USDA/OIG-A/50099-13-KC                                                         Page ii
           current inventory systems to promptly provide the critical data necessary
           to minimize homeland security vulnerabilities. FSA should develop and
           implement systems that provide critical homeland security features.
           Finally, we recommend that the FSA should coordinate with the Office of
           Procurement and Property Management to determine and obtain the
           appropriate security classifications and background investigations needed
           for all FSA employees and contractors who are involved in determinations
           of suitability and safety of agricultural commodities.

                                      FSA generally concurred with our audit
       FSA RESPONSE                   findings and recommendations during an
                                      October 21, 2003, exit conference, but
                                      expressed     concern     that     Departmental
          guidance was needed for a Department-wide effort to reduce the
          homeland security vulnerabilities of USDA agricultural commodities and
          commodity inventories. On December 22, 2003, FSA provided written
          comments to the report, which in general, indicated that action had been
          taken based on guidance provided by the USDA Homeland Security Office
          and included agreement that additional action was warranted. However,
          appropriate corrective action could not be properly identified or formulated
          until a risk assessment is conducted.          The comments provided
          documentation for the specific actions planned or implemented for each
          recommendation (see exhibit B of this report).

           The response explained that the FSA Administrator and key members of
           his staff met with the Director of the USDA Homeland Security Office to
           discuss the draft audit report and to obtain guidance on how FSA should
           accomplish appropriate corrective action. The Director of the Homeland
           Security Office directed FSA to conduct a risk assessment under the
           supervision of, and using methodologies recommended by, the Homeland
           Security Office. The first step was for FSA to obtain security clearances
           for personnel to be assigned to the assessment. The assessment could
           not proceed without these clearances. The comments stated that the
           affected personnel prepared and submitted their clearance documents for
           processing.

                                       Although FSA’s written comments presented
        OIG POSITION                   general concurrence with our findings and
                                       recommendations, the comments did not
                                       provide sufficient information to reach
          management decision for any of the recommendations. To reach
          management decision, FSA, upon completion of the risk assessment,
          needs to identify the specific actions that will be taken and the estimated
          timeframes for implementation.


USDA/OIG-A/50099-13-KC                                                        Page iii
                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS ......................................................................................ii
   FSA RESPONSE.......................................................................................................iii
   OIG POSITION..........................................................................................................iii
TABLE OF CONTENTS................................................................................................iv
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................6
   SCOPE AND METHODOLOGY .................................................................................6
FINDINGS AND RECOMMENDATIONS .......................................................................9
   CHAPTER 1 ...............................................................................................................9
   ACTIONS NEEDED ON HOMELAND SECURITY AND SAFETY OF
   AGRICULTURAL COMMODITIES.............................................................................9
   FINDING NO. 1 ........................................................................................................10
   RECOMMENDATION NO. 1 ....................................................................................13
   RECOMMENDATION NO. 2 ....................................................................................14
   RECOMMENDATION NO. 3 ....................................................................................14
   RECOMMENDATION NO. 4 ....................................................................................15
   FINDING NO. 2 ........................................................................................................15
   RECOMMENDATION NO. 5 ....................................................................................19
   RECOMMENDATION NO. 6 ....................................................................................20
   RECOMMENDATION NO. 7 ....................................................................................20
   RECOMMENDATION NO. 8 ....................................................................................20
   RECOMMENDATION NO. 9 ....................................................................................21
   FINDING NO. 3 ........................................................................................................22
   RECOMMENDATION NO. 10 ..................................................................................24
   RECOMMENDATION NO. 11 ..................................................................................25

USDA/OIG-A/50099-13-KC                                                                                             Page iv
   CHAPTER 2 .............................................................................................................26
   FURTHER ASSESSMENT OF SECURITY CLASSIFICATION NEEDED ...............26
   FINDING NO. 4 ........................................................................................................26
   RECOMMENDATION NO. 12 ..................................................................................27
   EXHIBIT A – AUDIT SITE LOCATIONS ..................................................................28
   EXHIBIT B – FSA RESPONSE ................................................................................29
ABBREVIATIONS........................................................................................................34




USDA/OIG-A/50099-13-KC                                                                                             Page v
                                            INTRODUCTION

                                               As demonstrated by the terrorist attacks of
               BACKGROUND                      September 11, 2001, the United States and
                                               other nations face increasingly diffuse threats.
                                               The United States General Accounting Office
                 (GAO) indicated that potential adversaries are more likely to strike
                 vulnerable civilian and military targets in nontraditional ways to avoid direct
                 confrontation with our military forces on the battlefield, to try to coerce our
                 government to take some action terrorists desire, or simply to make a
                 statement.1 In light of this and subsequent anthrax attacks, the United
                 States Department of Agriculture (USDA), the citizenry, and others in food
                 and food-related industries reconsidered the vulnerability of the Nation’s
                 food supply. USDA agencies are among the most vital components of the
                 Nation’s food security and safety structure.

                    The Commodity Credit Corporation (CCC) Charter Act created a corporate
                    body to be known as the CCC. CCC is a Government-owned and
                    operated entity created to stabilize, support, and protect farm income and
                    prices. The corporation helps maintain balanced and adequate supplies of
                    agricultural commodities and aids in their orderly distribution. It is
                    authorized to procure, transport, store, process, and dispose of various
                    agricultural commodities and their products, and provides storage
                    adequate to fulfill its program needs by contracting with commercial
                    warehouses to store agricultural commodities. CCC programs and
                    operations are managed and administered by Farm Service Agency (FSA)
                    since the CCC has no operating personnel.

                    CCC’s strategic goals, objectives, and performance measures are taken
                    from FSA’s Annual Performance Plan, since the two entities are so closely
                    related. The strategic goals for fiscal year (FY) 2002 were to:

                         •   provide farm income support to eligible producers, cooperatives,
                             and associations to help improve the economic stability and viability
                             of the agricultural sector and to ensure the production of an
                             adequate and reasonable priced supply of food and fiber;

                         •   assist agricultural producers and landowners in achieving a high
                             level of stewardship of soil, water, air, and wildlife resources on
                             America’s farms and ranches while protecting the human and
                             natural environment;

1
    GAO Testimony on Homeland Security – A Risk Management Approach Can Guide Preparedness Efforts, GAO-02-208T.

USDA/OIG-A/50099-13-KC                                                                                        Page 1
             •   improve the effectiveness and efficiency of commodity acquisition,
                 procurement, storage, and distribution activities to support domestic
                 and international food assistance programs; and

             •   provide effective administrative services and information technology
                 processes.

          Agricultural commodity inventories, owned or controlled by the USDA
          through the FSA, are among the Nation’s many food resources. FSA
          acquires inventories, specified agricultural commodities, through
          purchases and forfeitures under CCC’s non-recourse loan programs and
          buys certain surplus products (butter, cheese, nonfat dry milk) from
          processors to help maintain market prices at the legislated support level.
          The U.S. Warehouse Act (USWA), as amended December 31, 2000,
          through Public Law 106-580, provides a voluntary licensing program to
          ensure the integrity of agricultural commodities in participating warehouse
          facilities and that the facilities meet established approval standards. Also,
          FSA maintains storage agreements with over 6,700 commercial
          warehouses nationwide for grain and rice, 345 commercial warehouses for
          processed agricultural commodities, and still more for other food-related
          agricultural commodities, such as sugar. The storage agreements
          sometimes include temporary storage for food distributed through various
          assistance programs administered by the Food and Nutrition Service
          (FNS) and the Agricultural Marketing Service (AMS). CCC works to return
          stored commodities to the private trade channel. The FSA Kansas City
          Commodity Office (KCCO), located in Kansas City, Missouri, is
          responsible for managing the acquisition, handling, storage,
          transportation, and disposition of commodities in order to administer CCC
          program commitments and the USWA operations.

          The estimated size of the agricultural commodity inventories maintained
          by FSA during FY 2001 included about 1.5 billion pounds of sugar,
          857 million pounds of nonfat dry milk, 118 million bushels of wheat,
          22 million bushels of corn and other feed grains, and 5 million pounds of
          cheese. At the end of FY 2002, FSA maintained about 511 million pounds
          of sugar, 1.3 billion pounds of nonfat dry milk, 102 million bushels of
          wheat, 18 million bushels of corn and other feed grains, and 4 million
          pounds of cheese. As of September 30, 2002, CCC-owned inventory
          totaled $2,486 million, compared to $2,285 million the previous year. FSA
          uses two major inventory systems to track its commodity inventories. FSA
          managed bulk grain, oilseed, and rice inventories are tracked with the
          Grain Inventory Management System (GIMS), while processed agricultural
          commodities (such as nonfat dry milk and certain FNS feeding program
          components) are tracked through the Processed Commodity Inventory
          Management System (PCIMS).           FSA uses these systems and its
          commodity operations to ensure (1) a uniform regulatory system for

USDA/OIG-A/50099-13-KC                                                         Page 2
          storage of agricultural products, (2) the timely provision of high quality
          food products to domestic and international food assistance and
          development programs, and (3) achievement of domestic farm program
          objectives.

          According to the Administrator of USDA’s FSA, agriculture makes up over
          15 percent of the Nation’s gross domestic product, generating $1 trillion in
          economic activity each year. In addition to the many Federal, State, and
          local agencies engaged in protecting the food supply, private sector
          companies and non-profit groups contribute a great deal of effort toward
          this end. One example is the Alliance for Food Security, a public-private
          partnership that provides a forum to exchange information and coordinate
          homeland security preparedness activities for about 124 agricultural and
          food industry organizations and governmental entities.

          The USDA is a part of a complex array of federal regulatory organizations
          responsible for providing consumer protection, including the Department
          of Health and Human Service’s (DHHS) Food and Drug Administration
          (FDA), the USDA’s Food Safety and Inspection Service (FSIS) and Animal
          and Plant Health Inspection Service (APHIS), and the Environmental
          Protection Agency (EPA). Many other agencies and offices have food
          safety missions within their research, education, prevention, surveillance,
          standard-setting, and/or outbreak response activities; including DHHS’
          Centers for Disease Control and Prevention (CDC), and the National
          Institutes of Health, the USDA’s AMS, Agricultural Research Service,
          Cooperative State Research, Education, and Extension Service, Economic
          Research Service, and the Grain Inspection, Packers and Stockyard
          Administration (GIPSA); plus the U.S. Codex office and the Department of
          Commerce’s National Marine Fisheries Service.

          The FDA is charged with protecting consumers from impure, unsafe, and
          fraudulently labeled food that are not regulated by USDA. USDA’s FSIS is
          responsible under the Federal Meat Inspection Act, the Poultry Products
          Inspection Act, and the Egg Products Inspection Act for ensuring the
          safety of meat, poultry, and certain egg products. FSIS has the
          responsibility for ensuring that meat, poultry, and egg products are safe,
          wholesome, and accurately labeled. FDA is also the lead agency in
          implementing the provisions of the Public Health Security and Bioterrorism
          Preparedness and Response Act of 2002 (the Bioterrorism Act). In
          January 2003, FDA proposed regulations to implement the Bioterrorism
          Act that include requirements that “Domestic or foreign facilities that
          manufacture, process, pack, distribute, receive, or hold food for
          consumption by humans or animals in the U. S. must register with FDA no
          later than December 12, 2003”. Exempt from registration are: farms; retail
          food operations; restaurants; non-profit operations that prepare food for, or
          serve food directly to, consumers; fishing vessels not engaged in

USDA/OIG-A/50099-13-KC                                                         Page 3
          processing; and facilities regulated exclusively throughout the entire facility
          by the USDA. For example, meat plants regulated by USDA FSIS will be
          exempt but all grain warehouses and elevators must comply with the FDA
          regulations.

          EPA’s mission includes protecting public health and the environment from
          risks posed by pesticides and promoting safer means of pest
          management. No food or feed item may be marketed legally in the United
          States if it contains a food additive or drug residue not permitted by FDA,
          or if it contains a pesticide residue without an established EPA tolerance,
          or the residue is in excess of an EPA-established tolerance. APHIS’
          primary role in the U.S. food safety network of agencies is to protect
          against plant and animal pests and diseases.

          AMS uses CCC authority to acquire various agricultural commodities for
          domestic and foreign food assistance programs. AMS operations include
          six commodity programs covering cotton, dairy, fruits and vegetables,
          livestock and seed, poultry, and tobacco. The agency’s specialists
          provide standardization, grading, and market news services for the
          agricultural commodities. AMS also oversees marketing agreements and
          orders for USDA food programs, administers research and promotion
          programs, and purchases agricultural commodities.        The agency
          purchased over 1.3 billion pounds of fresh and processed fruits and
          vegetables (valued at over $600 million) during FY 2001.

          The CCC is also authorized to donate food agricultural commodities,
          acquired through price support programs or from purchases in the
          commercial marketplace, to the Bureau of Indian Affairs, and Federal,
          State, and private agencies and institutions. The agricultural commodities
          are used in the U.S. for school lunch programs, summer camps for
          children, and assistance for the needy. In most instances, FSA arranges
          to process the agricultural commodities into food.

          FNS administers 15 food assistance programs of the USDA, serving 1 in
          6 Americans by providing a safety net for people in need. FNS programs
          include the National School Lunch Program, which provided over
          27.4 million children with daily lunches during FY 2000. The agency also
          administers Indian Reservation and Commodity Supplemental Food
          Programs with estimated participation totaling well over 520 thousand
          meals during FY 2001. FNS also distributed over 252 million meals to the
          elderly during the same period.

          GIPSA is a part of USDA’s marketing and regulatory programs that help
          ensure a productive and competitive global marketplace for the Nation’s
          agricultural products.       GIPSA’s Federal Grain Inspection Service
          establishes official grain standards, methodologies for testing grain quality

USDA/OIG-A/50099-13-KC                                                           Page 4
                     accurately and consistently, and impartial application of the standards
                     through a network of Federal, State, and private inspection agencies.

                     In September 2002, the Secretary announced the Department’s homeland
                     security efforts.2 The announcement stated that the Department had
                     formed a USDA Homeland Security Council to develop a Department-wide
                     plan and to coordinate the homeland security efforts of all USDA agencies
                     and offices. This included more focused efforts on three key areas
                     (1) food supply and agricultural production, (2) USDA facilities, and
                     (3) USDA staff and emergency preparedness. The announcement stated
                     that USDA’s efforts include:

                     •    protecting U.S. borders from invasive pests and diseases;
                     •    protecting the health of farm animals, crops, and natural resources and
                          ensuring successful rapid responses to animal and crop disease
                          outbreaks and pest infestations;
                     •    assuring a safe food supply;
                     •    protecting and enhancing research and laboratory facilities;
                     •    protecting other infrastructure, such as U.S. Forest Service aviation
                          facilities;
                     •    securing the Department’s information technology;
                     •    ensuring continuity of USDA operations;
                     •    launching an aggressive initiative to identify and protect USDA assets
                          through audits and investigations;
                     •    developing full and complete continuity of operations for all USDA
                          agencies and offices; and
                     •    implementing a Departmentwide National Interagency Incident
                          Management System.

                     The U. S. Department of Homeland Security has established the following
                     five threat conditions:

                     Condition (Green). This condition is declared when there is a low risk of
                     terrorist attacks.

                     Guarded Condition (Blue). This condition is declared when there is a
                     general risk of terrorist attacks.

                     Elevated Condition (Yellow). An Elevated Condition is declared when
                     there is a significant risk of terrorist attacks.

                     High Condition (Orange). A High Condition is declared when there is a
                     high risk of terrorist attacks.



2
    USDA Homeland Security Efforts, published September 2002 and May 2003, located on the USDA Internet web site.

USDA/OIG-A/50099-13-KC                                                                                              Page 5
          Severe Condition (Red). A Severe Condition reflects a severe risk of
          terrorist attacks.

          Depending on the alert level designated by the U.S. Department of
          Homeland Security, each Threat Condition contains some suggested
          Protective Measures, recognizing that the heads of Federal departments
          and agencies are responsible for developing and implementing
          appropriate agency-specific protective measures.

          Recent actions by USDA included providing information on ways in which
          producers, processors, and meal providers could help bolster protections
          for our food supply. The five areas included: make a plan to manage risk;
          train employees and customers; secure your assets; monitor to prevent
          unauthorized entry; and report suspicious activity. USDA does not
          mandate or monitor the extent to which these actions are implemented.

          USDA has also undertaken a number of actions to improve the safety of
          certain sectors of the American food chain and specifically, to protect
          meat, poultry, and egg products against intentional contamination. These
          actions included the FSIS completing vulnerability assessments as well as
          developing and disseminating guidelines to alert and assist industry and
          consumer stakeholders on techniques to improve security.           These
          documents include: FSIS Security Guidelines for Food Processors; FSIS
          Safety and Security Guidelines for the Transportation and Distribution of
          Meat, Poultry, and Egg Products; Keep America’s Food and Agriculture
          Safe; and Food Safety and Food Security.

          FSA also has implemented Systematic Tracking for Optimal Risk
          Management (STORM).          STORM is a web-based application that
          eliminates the need for paper-based tracking of disaster event information
          reported by service centers. STORM allows authorized service center
          employees to input Flash Report and Damage Assessment Report data
          online. Via the Internet, authorized individuals from any location can
          immediately view disaster information reported by their service center.

                                   To determine if USDA developed and
        OBJECTIVES                 implemented adequate actions to minimize
                                   risks of USDA agricultural commodity
                                   inventories to destruction, contamination, or
         adulteration; including bulk grains, oilseeds, rice, and processed
         commodities.

                                     To accomplish our objectives, we conducted a
SCOPE AND METHODOLOGY                review of homeland security issues specifically
                                     related to USDA commodity inventories
                                     primarily at FSA which has significant

USDA/OIG-A/50099-13-KC                                                      Page 6
          management and administration responsibilities for the inventories. Our
          review covered homeland security activities, operations, and plans after
          September 11, 2001, and prior activities, when necessary, to meet our
          objectives. In general, our review focused on security and safety
          vulnerabilities for FSA managed, administered, or controlled commodity
          inventories. We did not test or evaluate potential security or food safety
          vulnerabilities of agricultural commodities during distribution or
          transportation cycles, or any other activities associated with the
          conversion of raw agricultural commodities to edible products. Our
          fieldwork was generally conducted March 2002 through June 2003.

          We conducted reviews in Washington, D.C., at Departmental offices, the
          National offices of five USDA agencies, and at FSA’s KCCO. Exhibit A
          provides a list of all entities visited during the review. In general, we
          interviewed program and operational officials and reviewed the agencies’
          homeland security plans and activities. We interviewed an Office of the
          General Counsel staff member to identify any legislative requirements
          pertaining to safeguarding USDA-owned and controlled commodities. We
          also interviewed officials familiar with homeland and food security issues
          at the GAO and the FDA. Our discussions with GAO auditors generally
          focused on coordinating our audit efforts and to ascertain the extent of
          GAO coverage of homeland security-related issues. We visited FDA
          officials to better understand the FDA’s role in food safety as it related to
          homeland security and how their operations impact on USDA commodity
          inventories.

          In addition, we visited representatives from a number of private companies
          and trade organizations with a stake in homeland security issues dealing
          with food or food-related agricultural commodities. The overall purpose of
          these visits was to ascertain the potential impact of homeland security
          issues on the private sector involvement in USDA commodity inventories.

          We selected industry trade organizations for visits based on referrals by
          the agencies reviewed and on news articles describing their involvement
          in homeland security issues. We obtained comments from industry
          representatives and discussed their concerns related to homeland security
          issues. We also selected four commodity warehouses for review based
          primarily on the type of USDA-owned or controlled agricultural
          commodities listed as “on-hand” by the responsible agencies at the time of
          our visit. The warehouses visited included facilities to store non-fat dry
          milk, processed agricultural commodities, and both refined and raw sugar.
          These site visits were conducted primarily to assess the
          post-September 11, 2001, security measures taken by the warehouses




USDA/OIG-A/50099-13-KC                                                         Page 7
          and to obtain their respective comments and concerns on homeland
          security issues.

          We conducted the audit in accordance with Government Auditing
          Standards.




USDA/OIG-A/50099-13-KC                                             Page 8
           FINDINGS AND RECOMMENDATIONS


 CHAPTER 1       ACTIONS NEEDED ON HOMELAND SECURITY AND
                 SAFETY OF AGRICULTURAL COMMODITIES


          FSA has not sufficiently developed or applied effective homeland security
          policies to minimize the risks to USDA agricultural commodity inventories
          from threats or attacks or to ensure that employees and contractors react
          appropriately if, or when, events occur. Although agency officials
          implemented contingency plans for general operations, they neither
          critically assessed the vulnerabilities of the inventories nor adequately
          prepared to react effectively if attacks of deliberate contamination
          occurred against Government-owned or controlled commodity inventories.
          We found that FSA has not recognized its agricultural commodity
          inventory security responsibilities in its mission statement, regulations, and
          contracts pertaining to agricultural commodity operations.

          Our audit disclosed three conditions that threaten the security of the
          inventories and the usefulness of the inventories to the organizations and
          people who depend upon them:

          •   FSA needs to conduct vulnerability and risk assessments to determine
              the appropriate levels of protection needed for CCC-owned agricultural
              commodities. Therefore, FSA and their partner USDA agencies that
              administer and manage commodity inventories have not prepared
              strategic homeland security action plans on how their employees and
              industry contractors should deter threats and attacks on USDA
              commodity inventories and how they are to react if such events occur
              (see Finding No. 1);

          •   FSA needs to formulate clear directions on food safety and security
              when obtaining, through purchase and forfeiture, bulk grain, oilseeds,
              rice, and other commodity inventories that they manage, handle,
              transport, store, and distribute. This occurred because FSA has not
              adequately dealt with the possibility of intentional and widespread
              contamination that could disrupt domestic food production or
              international trade. Also, overlapping or unclear Federal, State, and
              local jurisdictions, including the FDA, confuse the responsibilities.
              Thus, FSA has not yet clearly defined what protections are needed for


USDA/OIG-A/50099-13-KC                                                          Page 9
                grain and other bulk food-related agricultural commodities in inventory
                (see Finding No. 2); and

            •   the management information systems used by FSA to manage and
                administer commodity inventories needs to be upgraded because they
                do not provide timely and reliable information on the status of the
                inventories during crises or in the event of attacks. Delayed data entry
                and loss of bulk commodity identity at shared storage sites prevent
                FSA and other USDA agencies from effectively tracking potentially
                contaminated agricultural commodities (see Finding No. 3).

            As a result, confidence is reduced that the appropriate steps to minimize
            exposure to specified risks have been undertaken, including the
            vulnerability of USDA agricultural commodities, to deliberate
            contamination.

                                       FSA has not conducted vulnerability and risk
        FINDING NO. 1                  assessments to determine the appropriate
                                       levels of protection needed for USDA-owned
    RISK ASSESSMENTS AND               agricultural commodities including bulk grain,
         ACTION PLANS                  oilseeds, rice, and processed commodities.
                                       This occurred because FSA has not expanded
                                       its commodity operations’ stated mission to
           recognize the safety and security responsibilities to be exercised over
           operations. As a result, FSA has not developed homeland security action
           plans or procedures to safeguard USDA commodity inventories
           commensurate with the risks. Action plans and tactical procedures are
           necessary to ensure that employees and industry contractors optimize
           potential deterrents for attacks and to ensure they react effectively to
           minimize the impact of any crisis that may occur. Therefore, USDA’s
           commodity inventories may be exposed to greater risk of deliberate
           contamination than necessary.

            In our effort to ascertain whether any vulnerability assessments for
            agricultural commodities had been performed within USDA, we
            interviewed an FSIS assistant deputy administrator who had been
            identified to us as having assessed the vulnerability of food regulated by
            USDA. The official stated that FSIS had performed risk assessments for
            pathogens, chemicals, and radiological substances entering the food
            supply related to meat, poultry, and egg products only, and its review did
            not encompass other bulk or processed agricultural commodities
            maintained in USDA inventories. After reviewing the assessments that
            had been conducted, we concluded that the FSIS approach could be
            viewed as a model or guide and used by other affected USDA agencies to
            facilitate their own assessments.



USDA/OIG-A/50099-13-KC                                                         Page 10
          The current FSA Commodity Operations’ stated mission is: “To ensure a
          uniform regulatory system for storage of agricultural products; ensure the
          timely provision of high quality food products to domestic and international
          food assistance and development programs; and ensure the achievement
          of domestic farm program objectives.” However, this mission does not
          recognize what we believe to be the inherent food safety and agricultural
          commodity inventory security responsibilities of FSA commodity
          operations. Interviews with program officials and commodity trade
          organization representatives disclosed that FSA and related industries
          were aware of potential risks for threats and attacks of deliberate
          contamination against agricultural commodity inventories and the need for
          action to protect them. However, we found no requirements in FSA
          internal procedures for program managers to assess homeland security
          risks for commodity inventories or to prepare homeland security strategic
          action plans based on the results of these assessments.

          FSA commodity operation managers believed that the complexities of the
          acquisition and storage process are too difficult to assess. This process
          includes bulk interchangeable agricultural commodities owned by USDA
          and located throughout the country as well as agricultural commodities
          used as collateral for USDA loans that are also located throughout the
          country in public warehouses and at individually-owned storage locations
          located on farms. The managers were concerned what such vulnerability
          assessments might conclude and the adverse impact on agency
          resources needed to develop and implement measures that would protect
          the food supply. Also, the agency’s program personnel believed that they
          do not have the necessary homeland security expertise or training to
          conduct the assessments. They were also concerned about the potential
          costs to entities resulting from Government attempts to regulate food
          security and the resulting regulations that might affect them.

          A recent incident provides a clear example of the need for homeland
          security risk assessments and strategic action plans. FSA maintains a
          large inventory of agricultural commodities in a number of privately-owned
          warehouses throughout the Nation. In October 2001, traces of anthrax
          spores were detected in a U.S. Postal Service stamp fulfillment facility
          near two [               ] warehouses containing processed agricultural
          commodities. The postal facility and the warehouses were located within
          the same underground complex. FSA officials worked with other Federal,
          State, and local governmental entities, as well as with the private owners
          of the facility, to minimize the impact of potential contaminates on the
          public. The CDC eventually determined that there was minimal risk that
          the warehouses were contaminated. However, we found that FSA did not
          have a written action plan or other written instructions in place at the time
          of the incident. Emergency procedures are necessary to prevent further
          distribution of the commodity and to identify all potentially contaminated

USDA/OIG-A/50099-13-KC                                                        Page 11
          agricultural commodities that may have been shipped before the
          contamination was discovered. The agency has not yet developed a plan
          to ensure that agency personnel react timely and properly and notify all
          recipients of potentially contaminated agricultural commodities when
          similar incidents occur in the future.

          Although FSA and other entities were able to satisfactorily address the
          cited situation, there is reduced assurance that this or similar incidents will
          be effectively addressed during any future events. An FSA program
          specialist, who worked with the ad hoc emergency team that responded to
          the incident, stated that workable criteria for an action plan could not be
          developed because of the large variety of potential differences in
          emergency situations. However, we concluded that generic action plans
          and tactical procedures can be developed to apply to most situations.
          These tools are necessary to assure that FSA and storage facility
          personnel clearly understand (1) the divisions of responsibility among
          Federal, State, and local authorities and storage facility employees, (2) the
          appropriate delegations of authority for making critical decisions, and
          (3) the need for prompt notification from storage facilities of potential
          incidents. Without effective plans and procedures, there is limited
          potential for effective team reactions to incidents, particularly if two or
          more were to occur simultaneously.

          The first step is to assess the vulnerability and risk of bulk grain, oilseeds,
          rice, and processed agricultural commodities to threats and attacks of
          deliberate contamination. This assessment would need to recognize the
          complexities of CCC-owned or farmer-owned price support loan
          commodity collateral being commingled with bulk grain, oilseeds, and rice
          of other public owners during the storage, transportation, and distribution
          process. Once individual risks are determined, a plan should be
          established to minimize the risks that could include assessing the agency
          operations and rethinking what resources the USDA or FSA has to deploy
          or reassign in the case of a high risk event or increased alert. These
          could include:

          •   assessing established requirements for improving general safety and
              security at processing, storage, and other agricultural sites to help
              keep America’s food and agriculture safe;

          •   establishing when specific procedure requiring that the FDA be called
              upon to assess food safety other than meat, poultry, and eggs for both
              bulk agricultural commodities and processed commodities used for
              (1) food for humans, (2) feed for animals, and (3) industrial uses, such
              as for producing ethanol for fuel; and




USDA/OIG-A/50099-13-KC                                                          Page 12
          •   utilizing FSA’s extensive field office structure and staff, including
              warehouse examiners across the Nation, differently on an event or
              threat level basis. For example, FSA county office staff might be
              deployed to perform critical security steps at warehouses in their
              respective counties under a heightened alert. Another approach might
              be to utilize the KCCO Warehouse License and Examination Division
              staff to deviate from their normal steps to perform warehouse
              examinations in support of the CCC Uniform Storage Agreements and
              the USWA if in a heightened alert status. In any event, FSA should
              specify and communicate what it expects its employees to do during
              the various alert levels.

          Based upon these factors, we believe that FSA should intensify its efforts
          with it’s food safety partners, industry representatives, and other USDA
          and Federal agencies involved with grain, oilseeds, and rice and
          processed commodity storage, handling, and transportation to formulate a
          food safety and security strategy and appropriate assessment criteria that
          are based on a combination of program goals and potential security
          threats for deliberate contamination.

          Recommendations to the FSA Administrator:

                                      In collaboration with the USDA Homeland
  RECOMMENDATION NO. 1                Security Office, develop food safety and
                                      security strategies for commodity operations
                                      and     related   programs  and     activities
          (commodity operations).

          FSA Response:

          “The FSA Administrator, Associate Administrator, and Deputy
          Administrator for Commodity Operations met with the Director of USDA’s
          Homeland Security Office to discuss the draft audit report and actions that
          FSA should pursue. The Homeland Security Office directed FSA to
          conduct a risk assessment under their supervision.”

          OIG Position:

          We are unable to reach management decision for this recommendation
          because the comments did not indicate if FSA plans to develop food
          safety and security strategies or if the Office of Homeland Security
          supervised vulnerability assessment will be used for this purpose. To
          reach management decision on the recommendation, FSA needs to
          explain how they will develop their food safety and security strategies. In
          addition, FSA needs to provide estimated timeframes for completion of the
          recommended corrective actions.

USDA/OIG-A/50099-13-KC                                                      Page 13
                                      Conduct a homeland security risk assessment
  RECOMMENDATION NO. 2                for commodity operations. The results of this
                                      risk assessment should be used as the basis
                                      for formulating the appropriate corrective
        action for all the remaining recommendations in this report.

            FSA Response:

            “FSA has initiated the process to conduct a risk assessment under the
            direction of the Homeland Security Office. FSA personnel who will be
            involved in the risk assessment must first obtain security clearances. The
            risk assessment must be conducted using the methodology recommended
            by the Homeland Security Office.”

            “In addition, FSA has met with the Food and Drug Administration, the
            Food and Nutrition Service, and the Food Safety and Inspection Service.
            These three agencies are conducting risk assessments on certain foods.
            The risk assessments cover the food from “farm to table”. All three
            agencies believe that FSA should be included in the risk assessments.
            The first step is to obtain security clearances for FSA personnel. Security
            clearance applications have been completed and submitted for processing
            for the affected personnel.”

            OIG Position

            To reach management decision on the recommendation, FSA needs to
            provide estimated timeframes for completion of the homeland security risk
            assessment for commodity operations.

                                        Incorporate homeland security and safety
  RECOMMENDATION NO. 3                  issues into the agency’s Commodity
                                        Operations’ mission statement, policies, and
                                        procedures.

            FSA Response:

            “Commodity Operations agrees to reevaluate and, as appropriate, update
            the related mission, policies, and procedures to reflect homeland security
            and safety issues. FSA is currently undergoing an in-depth review and
            update to the strategic planning and budget process. As a result, the
            agency’s mission statements, goals, and performance measures are being
            re-written. Commodity Operations will work to incorporate the homeland
            security and safety issues, as appropriate, into the strategic plan.”

            OIG Position

USDA/OIG-A/50099-13-KC                                                        Page 14
            To reach management decision for the recommendation, FSA needs to
            address the recommendation upon completion of the risk assessment and
            provide estimates for the time that is needed to develop and implement
            the appropriate corrective actions.

                                    Develop and implement homeland security
  RECOMMENDATION NO. 4              action plans and tactical procedures for
                                    commodity operations.     This should be
                                    accomplished with active participation of all
        effected stakeholders to the extent practicable.

            FSA Response:

            “Commodity Operations will implement any actions or recommendations
            identified through the homeland security risk assessment conducted within
            the parameters of USDA’s overall homeland security strategies. If
            possible, the implementation process will include participation from all
            affected industries. The results of the risk assessments are classified, so
            actions taken may not be publicly stated as related to the homeland
            security risk assessment.”

            OIG Position

            To reach management decision for the recommendation, FSA needs to
            address the recommendation upon completion of the risk assessment and
            provide estimates for the time that is needed to develop and implement
            the appropriate corrective actions.

                                       FSA obtains through purchase and forfeiture
       FINDING NO. 2                   bulk grain, oilseeds, rice, and other commodity
                                       inventories that they are to manage, handle,
  ESTABLISHING SAFEGUARD               transport, store, and distribute without clear
     REQUIREMENTS ON                   direction on food safety and security. This
 AGRICULTURAL COMMODITIES              occurred because FSA has not adequately
                                       dealt with the possibility of intentional and
                                       widespread       contamination      of   USDA
          commodity inventories that could disrupt domestic food production or
          international trade. The agency has been reluctant to change the
          long-standing operational policies on how agricultural commodities are
          handled, stored, and secured. Also, overlapping or unclear jurisdictions
          among Federal, State, and local entities, including the FDA, on their
          responsibilities for food safety which includes commodities used for both
          food for humans and animals, has contributed to the lack of action. As a
          result, without specific safety and security requirements for commodities
          owned by USDA or provided as collateral to USDA that are often

USDA/OIG-A/50099-13-KC                                                        Page 15
                     commingled with commodities owned by private interests, the confidence
                     in the safety and security of the agricultural commodities used for both
                     human and animal food is diminished.

                     While the USDA is responsible, by statute, for regulating meat, poultry,
                     and eggs, the FDA has overall statutory responsibility for regulating most
                     other foods. The FDA has issued regulations promulgated by the Food,
                     Drug, and Cosmetic Act (FDCA).3            The FDCA defines “food” as
                     “(1) articles used for food or drink for man or other animals, (2) chewing
                     gum, and (3) articles used for components of any such article.” This
                     definition does not state or imply any differences between the types of
                     table foods; meats, fruits, and vegetables; beverages; bulk agricultural
                     commodities; processed foods; or even animal feed. According to the
                     FDCA, food consumed by farm animals raised for slaughter should be
                     provided the same level of protection that is applied to food for pets, zoo
                     animals, and for the human population. Both FDA and USDA issued
                     voluntary security suggestions to help food processors but neither track
                     nor document the extent to which they are implemented.

                     On March 21, 2003, the FDA announced the availability of four guidance
                     documents addressing food and cosmetic security preventive measures.
                     Two are revised, final guidance documents; one addresses food
                     producers, processors, and transporters; the other addresses food
                     importers and storage warehouses. The other two documents are draft
                     guidance, one addresses retail food stores and food service
                     establishments, and another addresses cosmetics processors and
                     transporters. These FDA guidance documents take the operators of food
                     and cosmetic establishments through each segment of the system within
                     their control, in order to minimize the risk that the foods or cosmetics
                     under their control are subject to tampering or other malicious criminal or
                     terrorist actions. These guidance documents are not regulations and are
                     not mandatory.

                     One of the two revised, final guidance documents addressed food
                     producers, processors, and transporters, which were designed to aid
                     operators of food establishments (for example; firms that produce,
                     process, store, repack, re-label, distribute, or transport food or food
                     ingredients). The second guidance document covers operators of food
                     importing establishments, storage warehouses, and other eligible
                     operators (including customhouse brokers). The revised documents
                     identify the kinds of preventive measures that operators may want to
                     consider taking to minimize the risk that food under their control will be
                     subject to tampering or other malicious, criminal, or terrorist actions.
                     However, USDA has not yet acted to require actions to address the
                     agricultural commodities USDA owns or that have been pledged as
3
    The Food, Drug, and Cosmetic Act, as amended, February 1998.

USDA/OIG-A/50099-13-KC                                                                 Page 16
                      collateral. In addition to FDA, USDA also has issued voluntary security
                      suggestions to meal providers and producers.

                      FSA is a complex agency with many varied responsibilities that include its
                      price support and other commodity programs and its domestic acquisition
                      and disposal activities for price supported commodities. FSA, on behalf of
                      CCC, administers non-recourse marketing assistance loans for certain
                      agricultural commodities. That is, a producer has the option of delivering
                      to CCC the quantity of a commodity pledged as collateral for a loan as full
                      payment for that loan at maturity. To be an eligible commodity to be
                      pledged as a loan, the commodity must be merchantable for food, feed, or
                      other uses determined by CCC and may not contain mercurial
                      components, toxin producing molds, or other substances poisonous to
                      humans or animals. Commodities must be stored in approved farm
                      storage that affords safe storage or approved public warehouse storage
                      for price support purposes. FSA acquires the grain but does not usually
                      require tests for contaminants of the agricultural commodities4 until after
                      the final use has been determined. Our review of applicable price support
                      regulations and internal procedure disclosed FSA has not specified nor
                      required enhanced safety and security measures for storing producer or
                      CCC-owned bulk grain, oilseeds, rice, and processed agricultural
                      commodities.

                      Under the authority of the USWA FSA offers a voluntary licensing program
                      for public warehouses. FSA estimated that about 47 percent of all
                      commercial warehouse space is licensed under the USWA. However, the
                      legislation, supporting regulations, and informal FSA procedures do not
                      provide any specific requirements or measures for safekeeping stored
                      commodities from acts of deliberate contamination.          FSA officials
                      emphasized that the USWA was written to protect commodity depositors
                      and there were no provisions in the USWA for the protection of USDA
                      commodity inventories.

                      CCC also enters into storage agreements with private individuals and
                      companies to allow warehouse operators to store agricultural commodities
                      owned by CCC or pledged as collateral to CCC for marketing assistance
                      loans. CCC has agreements with warehouse operators under the
                      Uniformed Grain and Rice Storage Agreement (UGRSA). The UGSRA
                      requires the warehouse shall (1) be of sound construction, in good state of
                      repair, and adequately equipped to receive, handle, store, preserve, and
                      deliver the applicable commodity, (2) be under the control of the
                      contracting warehouseman at all times, and (3) not be subject to greater
                      than normal risk of fire, flood, or other hazards. CCC commodity inventory
                      amounts vary in any given year and are commingled with public-owned
                      commodities in these approved warehouses. However, the approval
4
    Excluding agricultural commodities that are not used for food, such as cotton and tobacco.

USDA/OIG-A/50099-13-KC                                                                           Page 17
          standards contained in the regulations and agreement, simply state that
          “Warehouses be of sound construction, in a good state of repair, and
          adequately equipped to receive, handle, store, preserve, and deliver the
          applicable commodity.” Also, the regulations require that the warehouses
          not be subject to greater than normal risk to fire, flood, or other hazard.

          In the course of marketing, bulk agricultural commodities, such as wheat
          and other grains, are commonly moved and commingled during the
          journey from farms to the final milling or processing destinations. For
          example, wheat from one farm may be commingled with wheat from other
          farms at local grain elevators. Grain from local elevators is often moved to
          larger elevators and commingled again with wheat from other elevators.
          Wheat from several counties and States may eventually be mixed at a
          central warehouse before being processed into flour and other wheat
          products. Thus, a contaminate, introduced to a single field on a farm or at
          a single county elevator, may eventually contaminate larger inventories.

          An FSA official described an actual incident where several million bushels
          of grain were destroyed due to herbicide residue contamination. He also
          described an incident where glass contaminated a rice inventory. In both
          instances, the foreign materials were identified and corrective action
          applied before the agricultural commodities were processed. He noted
          that both of these incidents involved accidental, rather than intentional,
          contaminations.

          An FSA National Commodity Operations manager explained that there are
          three uses for USDA grain and only one system for storage and
          transportation, thus, all grain was handled the same no matter how it was
          used in the end. The uses were (1) food for humans, (2) feed for animals,
          and (3) industrial uses, such as for producing ethanol for fuel. USDA
          officials recognized that agricultural commodities meet the FDA definition
          of food, but very few changes have been made in the operational
          processes of agricultural commodity inventory protection or related
          programs that would show increased security or safety measures that
          have been put in place.

          An FSA official also indicated that since USWA-related activities are
          fee-based, many believe that overregulation could result in public
          commodity warehouses refusing to participate in the USDA program and
          in FSA Price Support programs. However, the official indicated that some
          enhancements had been made to the sugar storage agreement and
          additional modifications were being considered for other storage
          agreements to address commodity security issues.


          Our interviews with agribusiness interests, including warehouses and

USDA/OIG-A/50099-13-KC                                                       Page 18
          storage facilities, showed they supported some additional voluntary
          initiatives but are concerned about the potential expense of implementing
          mandatory safeguards and the potential backlash that public confidence
          could be reduced in the safety of the food supply. We did visit four
          warehouse facilities that stored non-fat dry milk, processed agricultural
          commodities, and both refined and raw sugar. These site visits were
          conducted primarily to observe the post-September 11, 2001, security
          measures taken by the warehouses and to obtain their respective
          comments and concerns on homeland security issues. Of the four sites
          visited, two had extensive security measures in place while two had more
          limited security requirements.

          A formal evaluation should be performed to determine if there is a need or
          is not a need to handle the bulk grain, oilseeds, and rice differently as to
          whether it will be utilized for human food or animal feed. This would
          include assessing existing legislative authorities, regulations, policies,
          contracts, and agreements as to whether they contain the necessary
          provisions to safeguard the agricultural commodities from deliberate
          contamination and enable USDA to take appropriate corrective actions in
          the event conditions occur, such as terminating contracts for failure to
          implement prudent security measures at warehouse facilities. In addition
          to the risk assessment needed in Finding No. 1, we believe challenges
          remain in preventing contaminated agricultural commodities from entering
          the agriculture food supply.

          Recommendations to the FSA Administrator:

                                      In collaboration with FDA and the USDA
  RECOMMENDATION NO. 5                Homeland      Security   Office,  implement
                                      measures to manage and protect USDA
                                      agricultural commodity inventories and loan
          collateral.

          FSA Response:

          “Commodity Operations has met with FDA and the USDA’s Homeland
          Security Office. As stated in response to recommendation 2, FSA will
          conduct a risk assessment of USDA’s commodity inventories and loan
          collateral.   Based upon the risk assessment, FSA will implement
          appropriate protective measures. Since the risk assessment results will
          be classified, FSA will not be able to state publicly what measures will be
          implemented as a result of the risk assessment.”


          OIG Position



USDA/OIG-A/50099-13-KC                                                       Page 19
            To reach management decision for the recommendation, FSA needs to
            address the recommendation upon completion of the risk assessment and
            provide estimates for the time that is needed to develop and implement
            the appropriate corrective actions.

                                  Review     existing     legislative   authorities,
  RECOMMENDATION NO. 6            regulations,     policies,     contracts,     and
                                  agreements,      and determine if additional
                                  authorities are needed to safeguard from
        deliberate contamination USDA agricultural commodity inventories and
        loan collateral.

            FSA Response:

            “Commodity Operations agrees to review existing legislative, regulatory
            and contractual authorities and determine if any additional authorities may
            be needed.”

            OIG Position

            To reach management decision for the recommendation, FSA needs to
            address the recommendation upon completion of the risk assessment and
            provide estimates for the time that is needed to develop and implement
            the appropriate corrective actions.


                                        On the basis of the conclusions reached on
  RECOMMENDATION NO. 7                  Recommendation No. 6, work with the
                                        Department to seek appropriate authority from
                                        Congress or the Department of Homeland
            Security.

            FSA Response:

            “If FSA determines additional authorities are needed, FSA will work with
            the Department to obtain necessary actions as appropriate.”

            OIG Position

        To reach management decision for the recommendation, FSA needs to
        address the recommendation upon completion of the risk assessment and
        provide estimates for the time that is needed to develop and implement
        the appropriate corrective actions.
                                    Revise existing regulations, policies, contracts,
  RECOMMENDATION NO. 8              and agreements, as needed, (1) to ensure
                                    entities are required to exercise prudent

USDA/OIG-A/50099-13-KC                                                        Page 20
          security measures in handling, storing, and transporting USDA
          commodities and (2) to enable USDA to take appropriate corrective
          actions in the event deliberate contamination occurs through cause and/or
          negligence of USDA program participants or contractors. Implementation
          of these requirements should be prioritized in accordance with the level of
          risk to the Nation’s food supply.

          FSA Response:

          “Commodity Operations will implement any plans or recommendations
          identified through the homeland security risk assessment conducted within
          the parameters of USDA’s overall homeland security strategies. This
          process may require regulatory changes involving rulemaking.
          Commodity Operations has initiated changes to storage agreements and
          licensing agreements that require warehouse operators to have security
          plans in place and to conduct vulnerability assessments.          These
          requirements have been included in the revised sugar and peanut uniform
          storage agreements and in the nuts and cotton licensing agreements. In
          addition, the homeland security requirements will become effective in the
          grain and rice storage agreement on April 1, 2004 and in the cotton
          storage agreement on August 1, 2004.”

          OIG Position

          To reach management decision for the recommendation, FSA needs to
          address the recommendation upon completion of the risk assessment and
          provide estimates for the time that is needed to develop and implement
          the appropriate corrective actions.

                                      As necessary, provide training for all FSA field
  RECOMMENDATION NO. 9                staff, including warehouse examiners, on new
                                      policies, procedures, roles, and responsibilities
                                      implemented in response to Recommendation
          No. 8.

          FSA Response:

          “Commodity Operations agrees that training is necessary to implement
          new policies and procedures. In August 2003, warehouse examiners
          received training from the American Institute of Baking on assessing and
          managing potential risks to protect food security and an overview of
          terrorist threats to food safety. As appropriate, additional training will be
          provided to all affected Commodity Operations’ personnel.”
          OIG Position:

          To reach management decision for the recommendation, FSA needs to

USDA/OIG-A/50099-13-KC                                                        Page 21
            address the recommendation upon completion of the risk assessment and
            determine the training for all appropriate FSA field staff, including
            warehouse examiners, on new policies, procedures, roles, and
            responsibilities. Also, FSA needs to provide estimates for the time that is
            needed to develop and implement the appropriate corrective actions.

                                       FSA’s      PCIMS      and    GIMS       processed
       FINDING NO. 3                   commodity and grain inventory management
                                       systems do not provide program managers
   INVENTORY MANAGEMENT                sufficient or timely inventory data to minimize
           SYSTEMS                     the risks of terrorist attacks. Contaminated
                                       agricultural commodities can be shipped from
                                       one warehouse to any number of secondary
          locations without prompt, reliable system reports disclosing the destination
          and probable disposition of the agricultural commodities involved. These
          systems were developed before the vulnerability of the Nation’s food
          supply was believed to be a significant homeland security risk and, thus,
          did not include safeguards for these risks. As a result, FSA’s automated
          inventory management systems cannot be relied upon to provide
          accurate, up-to-date information on the location and disposition of
          inventories during times of crises or in the event of terrorist attacks.

            A fundamental role of the Government is to protect America from both
            foreign and domestic threats. This includes threats to our food supplies.
            According to GAO, “recent events have raised the specter of bioterrorism
            as an emerging risk factor for our food safety system.”

            FSA maintains two major inventory management systems to track USDA
            commodity inventories, GIMS for grain inventories and PCIMS for
            processed commodity inventories. Neither system provides same-day
            data about inventory changes and movements, although program
            managers can eventually obtain the necessary information from industry
            records (or for PCIMS agricultural commodities only, from system reports).
            For example, PCIMS captures data concerning storage locations and
            shipments of processed agricultural commodities but, due to delayed data
            entry, some shipments may not be posted in the system for a month or
            more, depending on the resources available at KCCO at the time. This
            could prevent managers from promptly identifying the actual location of
            contaminated food or, at a minimum, cause undue confusion when there
            is a need to quickly verify the location of a specific lot of the inventory.
            FSA did not design PCIMS to accept inventory change data directly from
            the warehouses; warehouse personnel do not have the authority or
            capability to input inventory data online or through other electronic means.
            Instead, the warehouses mail bills of lading to KCCO for data entry.
            Several days or weeks may pass before FSA can identify the destinations
            of agricultural commodities shipped from a warehouse. As a result,

USDA/OIG-A/50099-13-KC                                                         Page 22
          agency program officials cannot always verify the location of specific lots
          of processed agricultural commodities that may be adulterated or
          contaminated to timely stop further distribution or processing.

          Similarly, GIMS cannot reliably identify the location of potentially
          contaminated grain because neither GIMS nor does the industry
          customarily retain the identity of the actual sources of grain. Grain from
          one farm or country elevator is commonly commingled with like-grain from
          other farms and other elevators. As a result, more grain may become
          contaminated before the contamination is noticed as different inventories
          are mixed with another.

          We did not plan or perform audit reviews of FSA’s PCIMS or GIMS
          systems structures or evaluate the general performance of these systems.
          However, our evaluation of FSA’s reaction to an anthrax incident in 2001
          (see Finding No. 1) clearly illustrates that PCIMS did not produce a reliable
          report to identify the various destinations and quantities of potentially
          contaminated inventory shipped from the warehouse. On October 31, 2001,
          the Kansas City evening news reported that a U.S. Postal Service Stamp
          Fulfillment facility located in Kansas City, Missouri, had tested positive for
          traces of anthrax. This postal facility is located in an underground cave that
          also houses two warehouses that were storing about 41 million pounds of
          non-fat dry milk. A press release was issued subsequently stating that tests
          would be conducted at the facility to determine if anthrax spores were
          present. The news release was issued because the postal facility had
          received a shipment of stamps that tested positive for anthrax on
          October 19, 2001, from the U.S. Postal Service’s Brentwood facility, where
          anthrax contamination had been confirmed.

          On November 1, 2001, FSA officials placed a hold order on all incoming and
          outgoing non-fat dry milk at the warehouses to prevent further distribution of
          any potentially contaminated inventories. The hold was in effect from
          November 1, 2001, through November 13, 2001. FSA officials determined
          that no outbound shipments had been made from one facility since
          September 1, 2001. However, approximately 2.2 million pounds had been
          scheduled for shipment from the second facility since September 1, 2001.
          Of this quantity, 1.5 million pounds had final shipment dates earlier than
          October 19, 2001. The remaining quantity had a scheduled shipment date
          of not later than November 30, 2001. We determined that the two
          warehouses did not ship agricultural commodities after the hold order of
          November 1, 2001.


          On April 24, 2002, we requested KCCO personnel to provide us
          documentation to verify that no non-fat dry milk had been shipped from the
          two onsite warehouses to other locations during the hold order. The KCCO

USDA/OIG-A/50099-13-KC                                                         Page 23
            specialist explained that PCIMS could not produce an accurate up-to-date
            report to provide the inventory information requested. She stated that,
            generally, inventory changes are recorded in the system within about
            2 weeks; however, at the time of the incident, there was only one employee
            entering data into the system, causing backlogs for data entry into PCIMS.
            In one instance, KCCO purchased about 1 billion pounds of non-fat dry milk.
             These purchases caused a PCIMS data entry backlog of up to 3 months,
            even though other employees were temporarily reassigned to assist with
            data entry. The specialist stated that a review of the bills of lading from the
            affected warehouses could be performed, but suggested that a manual
            review would be difficult to accomplish.

            Tracking systems that are used to manage USDA inventories should also
            be used to help assure that questionable, adulterated, or contaminated
            agricultural commodities are not inadvertently passed on to food
            processors, school districts, and program participants.         And when
            contaminated or potentially contaminated inventories are shipped, the
            systems should be useful to quickly identify applicable shipment locations
            so they may be promptly contacted to prevent further distribution.

            Recommendations to the FSA Administrator:

                                   Evaluate the viability of replacing or upgrading
 RECOMMENDATION NO. 10             current inventory systems to promptly provide
                                   the critical commodity inventory data
                                   necessary to minimize homeland security
       vulnerabilities. At a minimum, determine the critical information needs and
       estimated costs for developing and implementing such systems and weigh
       these costs against the potential costs to the industry and the potential
       harm to the health and welfare of the general public if no changes are
       made.

            FSA Response:

            “FSA, in coordination with the Food and Nutrition Service and the
            Agricultural Marketing Service, is part of a Departmental team working to
            acquire a replacement system for the Processed Commodities Inventory
            Management System. As part of the development process, Commodity
            Operations agrees to present homeland security issues that need to be
            addressed in the new supply chain management system. Commodity
            Operations agrees to initiate a process to evaluate the replacement of the
            Grain Inventory Management System. As with all information technology
            projects, funding and approvals through the Agency, the Department and
            the Office of Management and Budget must be obtained to proceed.”

            OIG Position

USDA/OIG-A/50099-13-KC                                                            Page 24
            To reach management decision, FSA needs to provide the estimated
            timeframes for completion of the proposed corrective action.

                                     Pursuant to Recommendation No. 10, develop
 RECOMMENDATION NO. 11               and implement improved commodity inventory
                                     systems that provide critical homeland
                                     security features, such as timely and effective
       reporting of significant details about inventory changes.

            FSA Response:

            “Commodity Operations agrees to develop and implement improved
            inventory systems if appropriate approvals and information technology
            funding are obtained through the Agency, the Department and the Office
            of Management and Budget.”

            OIG Position:

            In order to reach management decision, FSA needs to provide estimated
            timeframes for completing the proposed corrective actions.




USDA/OIG-A/50099-13-KC                                                     Page 25
    CHAPTER 2             FURTHER ASSESSMENT OF SECURITY
                          CLASSIFICATION NEEDED


                                             FSA does not customarily require background
            FINDING NO. 4                    investigations for warehouse examiners before
                                             or after employment begins. The FSA either
                                             classified the positions as nonsensitive or did
               not place suitable priority to assigning an appropriate classification. FSA
               personnel indicated they had not evaluated whether these positions
               should be reviewed in light of their duties that relate to the security and
               safety of the food supply. As a result, it is unclear whether the FSA
               employees who have examiner responsibilities are suitable for the
               sensitive positions that they hold.

                 Title 5 of the Code of Federal Regulations, part 731.106, states that
                 Federal “...positions at the high or moderate risk levels would normally be
                 designated as “Public Trust” positions. Such positions may involve policy
                 making, major program responsibility, public safety and health, law
                 enforcement duties, fiduciary responsibilities, or other duties demanding a
                 significant degree of public trust;…” The regulations further state,
                 “Persons receiving an appointment made subject to investigation under
                 this part must undergo a background investigation.” However, our review
                 of Office of Personnel Management and USDA Office of Personnel
                 requirements regarding security classifications and background
                 investigations are directed toward requirements concerning access to
                 classified or sensitive information.      These procedures are unclear
                 regarding these requirements as they relate to security and safety of the
                 food supply.

                 We interviewed the director of the USDA Office of Crisis Planning and
                 Management (OCPM)5 to ascertain if the office had identified
                 circumstances that could impact on homeland security for commodity
                 inventories. The director stated that he had analyzed recent data from the
                 National Finance Center and found that less than 1 percent of about 2,411
                 full-time agricultural commodity graders and warehouse examiners held
                 security classifications that required background investigations for the
                 employees.

                 The OCPM Director expressed his opinion that USDA’s commodity
                 inspectors, graders, and examiners hold positions of authority dealing with

5
 OCPM was incorporated into the Office of Procurement and Property Management (OPPM) Under Secretary’s Memorandum
No. 1020-052, issued August 15, 2002.

USDA/OIG-A/50099-13-KC                                                                                Page 26
            the suitability and safety of agricultural commodities used for food. We
            believe that FSA should evaluate the responsibilities and authorities of
            their personnel and assess the risks and vulnerabilities associated with
            these positions.

            Recommendation to the FSA Administrator:

                                      Coordinate with the Office of Procurement and
 RECOMMENDATION NO. 12                Property Management (OPPM) to determine
                                      and      obtain   the     appropriate  security
                                      classifications and background investigation
       needed for all FSA employees and contractors who are involved in
       determinations of suitability and safety of agricultural commodities.

            FSA Response:

            “FSA has coordinated with the Department’s Homeland Security Office on
            the issue of security clearances. Initially, FSA will obtain security
            clearances on management officials within Commodity Operations. If
            appropriate and indicated by the risk assessment, additional security
            clearances will be obtained.”

            OIG Position

            In order to reach management decision, FSA needs to provide estimated
            timeframes for completing the proposed corrective actions.




USDA/OIG-A/50099-13-KC                                                      Page 27
EXHIBIT A – AUDIT SITE LOCATIONS

      Site Name                                 Location(s) - 18


USDA Agencies:

Agricultural Marketing Service                  Washington, DC, and
                                                Republic, MO
Farm Service Agency                             Washington, DC, and
                                                Kansas City, MO
Food and Nutrition Service                      Alexandria, VA
Food Safety and Inspection Service              Washington, DC
Grain Inspection, Packers, and
   Stockyards Administration                    Washington, DC, and
                                                Kansas City, MO
Office of Procurement and Property
    Management                                  Washington, DC
Office of Crisis Planning and Management        Washington, DC


Non-USDA Federal Agencies:

Food and Drug Administration                    Rockville, MD, and Lenexa, KS
General Accounting Office                       Washington, DC


Private Companies and Industry Organizations:
American Bakers Association                     Washington, DC
American School Food Service Association        Alexandria, VA
AmeriCold Logistics                             Carthage, MO
Farmland Insurance Nationwide Agribusiness      Des Moines, IA
National Food Processor's Association           Washington, DC
National Grain and Feed Association             Washington, DC
Okeelanta Corporation                           South Bay, FL
[              ]                                [               ]
Sugar Cane Growers Cooperative of Florida       Belle Glade, FL




USDA/OIG-A/50099-13-KC                                                 Page 28
EXHIBIT B – FSA RESPONSE




USDA/OIG-A/50099-13-KC     Page 29
EXHIBIT B – AGENCY RESPONSE




USDA/OIG-A/50099-13-KC        Page 30
EXHIBIT B – AGENCY RESPONSE




USDA/OIG-A/50099-13-KC        Page 31
EXHIBIT B – AGENCY RESPONSE




USDA/OIG-A/50099-13-KC        Page 32
EXHIBIT B – AGENCY RESPONSE




USDA/OIG-A/50099-13-KC        Page 33
                          ABBREVIATIONS

     AMS         -      Agricultural Marketing Service
     APHIS       -      Animal and Plant Health Inspection Service
     Bioterrorism Act   Public Health Security and Bioterrorism Preparedness
                          and Response Act of 2002
     CCC        -       Commodity Credit Corporation
     CDC        -       Centers for Disease Control and Prevention
     DHHS       -       Department of Health and Human Services
     EPA        -       Environmental Protection Agency
     FDA        -       Food and Drug Administration
     FDCA       -       Food, Drug, and Cosmetic Act
     FNS        -       Food Nutrition Service
     FSA        -       Farm Service Agency
     FSIS       -       Food Safety and Inspection Service
     FY         -       Fiscal Year
     GAO        -       U. S. General Accounting Office
     GIMS       -       Grain Inventory Management System
     GIPSA      -       Grain Inspection, Packers, and Stockyard Administration
     KCCO       -       Kansas City Commodity Office
     OCPM       -       Office of Crisis Planning and Management
     OIG        -       Office of Inspector General
     OMB                Office of Management and Budget
     OPPM       -       Office of Procurement and Property Management
     PCIMS      -       Processed Commodity Inventory Management System
     STORM      -       Systematic Tracking for Optimal Risk Management
     UGRSA      -       Uniformed Grain and Rice Storage Agreement
     USDA       -       United States Department of Agriculture
     USWA       -       United States Warehouse Act




USDA/OIG-A/50099-13-KC                                                     Page 34
